MANAGEMENT CONTROLS OVER THE FY 2000 NATIONAL DRUG
    CONTROL PROGRAM FUNDS MANAGED THROUGH
       THE DOD CENTRAL TRANSFER ACCOUNT

Report No. D-2001-117                          May 10, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ACC                   Air Combat Command
DEP&S                 Drug Enforcement Policy and Support
DFAS                  Defense Finance and Accounting Service
FSSC                  Fleet Surveillance Support Command
JIATF-W               Joint Interagency Task Force West
NSWC                  Naval Special Warfare Command
O&M                   Operation and Maintenance
ONDCP                 Office of National Drug Control Policy
ROTHR                 Relocatable Over-The-Horizon Radar
STARS-FL              Standard Accounting and Reporting System – Field Level
ULO                   Unliquidated Obligations
                       Office of the Inspector General, DoD
Report No. D2001-117                                                        May 10, 2001
   (Project No. D2000LH-0241)

          Management Controls Over the FY 2000 National Drug
              Control Program Funds Managed Through
                  the DoD Central Transfer Account

                                Executive Summary

Introduction. This audit was performed to support the attestation review of the annual
DoD Drug Control Obligation Report required by the Office of National Drug Control
Policy Reauthorization Act of 1998 (Public Law 105-277). Under the Act, Congress
reauthorized the Office of National Drug Control Policy for 5 years and increased its
authority and responsibilities. We performed a review on the FY 1999 DoD
counterdrug program (see Appendix A, Prior Coverage). The audit work performed on
the DoD FY 1999 counterdrug budget did not identify any significant problems with
management controls over the obligation of funds. Therefore, the scope of our
FY 2000 review was more limited than the audit previously performed.

Section 705 of the Act requires Federal agencies involved in the National Drug Control
Program to submit to the Director, Office of National Drug Control Policy, no later
than February 1 of each year a detailed accounting of funds expended during the
previous fiscal year. The Act further states that the reports will be authenticated by the
Inspector General of the respective Federal agency.

The DoD counterdrug program is administered by the Office of the Deputy Assistant
Secretary of Defense (Drug Enforcement Policy and Support). The DoD counterdrug
program is controlled and funded through the DoD Central Transfer Account. When
the budgeted counterdrug funds are received, they are placed in the DoD Central
Transfer Account and subsequently reprogrammed to the Services, Defense agencies,
and the National Guard Bureau responsible for executing the DoD counterdrug
program. The DoD counterdrug program for FY 2000 was funded at $838.8 million,
excluding operating tempo funds. The Services receive operating tempo funds directly
for the counterdrug program to cover flying and steaming hours. Operating tempo
funds were not included in our review.

Objectives. Our audit objective was to evaluate the management controls over
obligations and unliquidated obligations of DoD National Drug Control Program funds
to determine whether the controls ensure that the funds are used for the purpose
intended by Congress.
Results. Management controls over distribution of the FY 2000 National Drug Control
Program funds managed through the DoD Central Transfer Account were initially
reasonable, however, procedures were changed during the year that lessened the
effectiveness of the controls. During execution of the FY 2000 budget, the Office of
the Deputy Assistant Secretary of Defense (Drug Enforcement Policy and Support)
stopped reprogramming funds by project code from the DoD Central Transfer Account
to the Defense Components. As a result, a documented audit trail for adequate control
and oversight over the DoD counterdrug budget was eliminated.

During both this audit and our prior audit, we noted that management controls over
obligations of DoD counterdrug funds were reasonable to ensure that the funds were
used for their intended purpose. However, the budget execution data used to prepare
the DoD annual report to the Office of National Drug Control Policy came from a
multitude of sources and were processed on a number of different financial systems,
which were not in compliance with Federal and DoD reporting requirements.
Management is working with the Office of the Under Secretary of Defense
(Comptroller) to make sure that when the DoD financial systems become compliant
with Federal and DoD reporting requirements, the systems will be able to provide the
detailed data necessary to produce the DoD report to the Office of National Drug
Control Policy. In addition, the tabulation of and reporting on unliquidated obligations
at the organizations we visited was in compliance with the DoD Financial Management
Regulation.

Summary of Recommendation. We recommend that the Deputy Assistant Secretary
of Defense (Drug Enforcement Policy and Support), in coordination with the Under
Secretary of Defense (Comptroller), incorporate by reference the Deputy Assistant
Secretary of Defense (Drug Enforcement Policy and Support) data sheet attachment
showing the funding allocation by project code into the DD 1415-3, “Reprogramming
Action - Internal,” when funds are reprogrammed from the DoD Central Transfer
Account to the Defense Components.

Management Comments. The Office of the Department of Defense Coordinator for
Drug Enforcement Policy and Support concurred with the recommendation to
coordinate with the Under Secretary of Defense (Comptroller) to incorporate into the
DD 1415-3, “Reprogramming Action – Internal,” by reference, the data sheet showing
the funding allocation by project code. See the finding section for the complete
discussion of management comments and the Management Comments section for the
complete text of the management comments.




                                           ii
Table of Contents

Executive Summary                                               i


Introduction
     Background                                                1
     Objectives                                                1

Finding
     Reprogramming Actions from the Central Transfer Account   2

Appendixes
     A. Audit Process
          Scope and Methodology                                 7
          Management Control Program Review                     8
          Prior Coverage                                        9
     B. Attestation Memorandum for DoD Coordinator for Drug
         Enforcement Policy and Support                        10
     C. Compliance Status of Accounting Systems                12
     D. Organizations Visited                                  13
     E. Report Distribution                                    20

Management Comments
     DoD Coordinator for Drug Enforcement Policy and Support   22
Background
     The Office of National Drug Control Policy Reauthorization Act of 1998 (Public
     Law 105-277) requires Federal agencies that receive National Drug Control
     Program funds to provide a detailed accounting of the prior fiscal year funding
     to the Office of National Drug Control Policy (ONDCP) by February 1 of each
     year. The Act also requires the respective agency Inspectors General to
     authenticate the reports prior to submission to ONDCP. To implement the
     requirement, “ONDCP Circular: Annual Accounting of Drug Control Funds”
     (ONDCP Circular) was issued December 17, 1999. The ONDCP Circular
     prescribes the form and content of how the report should be presented.

     National Drug Control Program. ONDCP is responsible for setting priorities,
     implementing a national strategy, and certifying Federal drug control budgets.
     ONDCP is also responsible for ensuring that Federal agencies with counterdrug
     programs spend their counterdrug funds in compliance with agency-approved
     budgets and in compliance with the National Drug Control Strategy. The
     National Drug Control Strategy provides a comprehensive plan to reduce drug
     use through treatment and prevention and to attack the supply of drugs through
     law enforcement and international cooperation.

     DoD Counterdrug Program. DoD receives National Drug Control Program
     funds and executes those funds through the DoD counterdrug program. The
     Office of the Deputy Assistant Secretary of Defense (Drug Enforcement Policy
     and Support) (DEP&S) is responsible for administering the DoD counterdrug
     program and ensuring that it conforms to the National Drug Control Strategy.
     The functions of the DoD counterdrug program include drug testing of military
     and civilian personnel; providing assistance, training, and support to law
     enforcement agencies; gathering and analyzing intelligence; educating youth to
     reject drugs; and detecting and monitoring drug trafficking routes. The
     counterdrug program is controlled and funded through the DoD Central
     Transfer Account. The DoD counterdrug program for FY 2000 was funded at
     $838.8 million, excluding operating tempo funds. In addition, the Services
     receive operating tempo funds to support the DoD counterdrug program. Those
     funds cover flying and steaming hours. The Services receive and control the
     operating tempo funds directly and not through the DoD Central Transfer
     Account. Therefore, operating tempo funds were not included in our review.
     The Services reported about $129 million in operating tempo counterdrug
     obligations during FY 2000.

Objectives
     The audit objective was to evaluate the management controls over obligations
     and unliquidated obligations of DoD National Drug Control Program funds to
     determine whether those controls ensure that the funds are used for the purpose
     intended by Congress. See Appendix A for a discussion of the audit scope,
     methodology, and prior audit coverage.



                                        1
              Reprogramming Actions from the
              Central Transfer Account
              Management controls over the distribution of FY 2000 National Drug
              Control Program funds managed through the DoD Central Transfer
              Account were initially reasonable, however, procedures were changed
              during the year, which lessened the effectiveness of the management
              controls. To expedite the release of funds, DEP&S stopped
              reprogramming the funds by project code from the DoD Central Transfer
              Account to the Defense Components during execution of the FY 2000
              budget. The change occurred in June 2000, affecting $52 million of the
              total $838.8 million of FY 2000 funds. As a result, a documented audit
              trail for adequate control and oversight over the DoD counterdrug budget
              was eliminated.

Central Transfer Account
     Management controls over distribution of FY 2000 National Drug Control
     Program funds received by DoD and managed through the DoD Central
     Transfer Account were initially reasonable. The DoD counterdrug budget is
     received as a single line item with no appropriation type identified. The funds
     are placed into the DoD Central Transfer Account managed by DEP&S. The
     DoD Central Transfer Account is used by DoD to separate, account for, and
     distribute the DoD counterdrug budget to Defense Components for execution.

     During FY 2000, DEP&S initiated four reprogramming actions that provided
     funding to the various Defense Components. The counterdrug funds were
     reprogrammed to about 18 Defense Components by project code and identified
     by appropriation type. The Defense Components then transferred the funds to
     their subordinate commands and organizations that had responsibility for budget
     execution. The breakdown of DoD counterdrug funding by Defense
     Components and appropriation type is shown in the table below.
              FY 2000 DoD Counterdrug Funding by Appropriation
                                                            in millions
   Defense Components           MILCON MILPERS            O&M Procurement         RDT&E        Total

   Army                             $      0   $     7.4 $143.4           $ 3.5    $      0   $154.3
   Navy                                    0        11.9 146.6             11.8        24.2    194.5
   Air Force                            10.8         2.5 109.2             12.6           0    135.1
   National Guard Bureau                   0       193.1   38.3               0           0    231.4
   Other Defense agencies                  0           0   99.0            15.6         8.9    123.5
      Total                         $10.8      $214.9 $536.5              $43.5    $33.1      $838.8
   MILCON     Military Construction
   MILPERS    Military Personnel
   O&M        Operation and Maintenance
   RDT&E      Research, Development, Test, and Evaluation



                                               2
Reprogramming Actions from the DoD Central Transfer
  Account
    During the execution of the FY 2000 counterdrug budget, DEP&S stopped
    reprogramming funds from the DoD Central Transfer Account to Defense
    Components by project code to expedite the release of funds, beginning in
    June 2000. About $52 million of the total $838.8 million of FY 2000
    Counterdrug funds were affected.

    Counterdrug funds are reprogrammed from the DoD Central Transfer Account
    to the Defense Components by issuing a DD 1415-3, “Reprogramming Action –
    Internal.” Each DoD counterdrug mission or function is identified by a
    four-digit DoD counterdrug project code assigned by DEP&S and used for
    internal budgetary control purposes. When counterdrug funds were
    reprogrammed, a DD 1415-3 was prepared that listed the Defense Component
    receiving the funds, the applicable budget activity and amount, and the
    applicable counterdrug project code. The DD 1415-3 was then signed by the
    Office of the Under Secretary of Defense (Comptroller), and the funds were
    released to the appropriate Defense Components. That action provided DEP&S
    with adequate control and visibility and a well-documented audit trail showing
    where the DoD counterdrug budget was distributed.

    During FY 2000, four reprogramming actions took place. The first two
    reprogramming actions showed the Defense Component, the applicable budget
    activity and amount, and the specific project code on the DD 1415-3. The last
    two actions, dated June 30, 2000 and August 24, 2000, did not identify a
    specific project code. Instead, the DD 1415-3 showed only the Defense
    Component, the applicable budget activity and amount, and contained a
    statement that the funding was for drug interdiction. DEP&S included an
    attachment that identified project codes, but the attachment did not officially
    designate the funds to specific project codes as the DD 1415-3 had done. The
    funds were designated for counterdrug purposes, but the revised procedures give
    little assurance that the counterdrug budget will be executed as directed by
    DEP&S. DEP&S personnel stated that the reason for changing the
    reprogramming action procedures was to expedite the reprogramming process so
    that the Defense Components would receive the counterdrug funds in a more
    timely manner.

    The last two reprogramming actions accounted for $52 million of the total
    $838.8 million that was reprogrammed from the DoD Central Transfer Account
    during FY 2000. The change in procedures eliminated a well-documented audit
    trail used for control and oversight of budget execution. Therefore, the data
    sheet attachment prepared by DEP&S, showing the funding allocation by project
    code, should be incorporated by reference on the DD 1415-3 to ensure that the
    funds will be distributed and executed in accordance with the DEP&S execution
    plan.




                                       3
Reporting of Obligations
     Each Defense Component that executed counterdrug funding received from the
     DoD Central Transfer Account was responsible for accurately reporting the
     budget execution results to DEP&S. DEP&S consolidates the year-end results
     provided by the Defense Components to prepare the DoD annual report to
     ONDCP that satisfies reporting requirements of Public Law 105-277. The
     budget execution data used to prepare the DoD annual report to ONDCP came
     from a multitude of sources and were processed on several financial systems,
     which were not compliant with Federal and DoD reporting requirements. That
     condition was addressed in Inspector General, DoD, Report No. D-2000-145,
     “Management Controls Over National Drug Control Program Funds Managed
     Through the DoD Central Transfer Account,” June 9, 2000. DEP&S
     management is working with the Office of the Under Secretary of Defense
     (Comptroller) to ensure that when the DoD financial systems become compliant
     with Federal and DoD requirements, the systems will be able to provide the
     detailed data necessary to prepare the DoD report to ONDCP. The planned
     milestone dates for when the systems will become compliant are listed in
     Appendix C.

DoD Attestation Memorandum
     We received the FY 2000 DoD annual report to ONDCP for review on
     January 25, 2001. The FY 2000 table of obligations was prepared using the
     same procedures used to prepare the FY 1999 annual report. Our FY 2000
     attestation memorandum (see Appendix B) states that we could not attest to the
     accuracy of the obligation amounts, but could attest to the reasonableness of the
     methodology used to control and account for the DoD counterdrug budget
     obligations. However, future attestation results could be adversely affected
     unless management requires the reprogramming actions from the DoD Central
     Transfer Account to be allocated by project codes.

     Our attestation memorandum also states that the FY 2000 annual report was not
     compliant with the ONDCP Circular because the report did not include
     information regarding DoD personnel resources used on drug control programs,
     the percentage of the DoD total budget used on counterdrug programs, and a
     table of management assertions. However, those portions of the annual report
     are applicable to Federal agencies that account for the counterdrug budget as a
     percentage or an estimate of the total agency budget. DoD manages its
     counterdrug budget through the DoD Central Transfer Account and does not use
     percentages or estimates. The DoD counterdrug budget is approved annually
     for specific programs, and resources applied to those programs are tracked
     through the DoD Central Transfer Account.

     The ONDCP Circular also requires listing the accounting systems used to
     process accounts funded by the counterdrug budget and any identified material
     weakness associated with those systems. DEP&S identified three of the major
     systems used: the Standard Finance System, which processes Army accounts;


                                         4
    the Standard Accounting and Reporting System, which processes Navy
    accounts; and the General Accounting and Finance System, which processes Air
    Force accounts. The report also states that the National Guard Bureau
    employed a central accounting service from the Defense Finance and
    Accounting Service (DFAS) to process its accounts but did not identify the
    system. From our previous audit work on the FY 1999 counterdrug budget, we
    identified the National Guard Bureau system as the State Accounting and Budget
    Expenditure Reservation System. The DEP&S report to ONDCP does not
    report any material weaknesses associated with those systems. However, we
    found that none of those systems are compliant with Federal and DoD reporting
    requirements. Some of the systems are listed as legacy systems that will be
    replaced and some will be modified or redesigned to make them compliant with
    applicable requirements. See Appendix C for the DoD planned milestone dates
    when each system will be compliant with applicable requirements or will be
    replaced.

Organizations Reviewed
    The audit work performed on the DoD FY 1999 counterdrug budget did not
    identify any significant problems with management control over the obligation
    of funds, therefore, the scope of this review was more limited than that of the
    audit we previously performed. The results of our review of management
    controls over the obligation and financial reporting relating to National Drug
    Control Program Funds for the organizations we visited during this audit are
    summarized at Appendix D. The finding discusses overall management controls
    over the distribution of National Drug Control Program Funds.

Conclusion
    Management controls over distribution of FY 2000 National Drug Controls
    Program funds were initially reasonable to ensure that the funds were used for
    the intended purpose. However, procedures were changed during the year to
    discontinue reprogramming funds from the DoD Central Transfer Account to
    the Defense Components by project code. The revised procedures eliminated a
    well-documented audit trail of how the DoD counterdrug program budget was
    distributed for execution.

Recommendation and Management Comments
    We recommend that the Deputy Assistant Secretary of Defense (Drug
    Enforcement Policy and Support), in coordination with the Under Secretary
    of Defense (Comptroller), incorporate by reference the Deputy Assistant
    Secretary of Defense (Drug Enforcement Policy and Support) data sheet
    attachment showing the funding allocation by project code into the
    DD 1415-3, “Reprogramming Action - Internal,” when funds are
    reprogrammed from the DoD Central Transfer Account to Defense
    Components.


                                       5
Office of the Department of Defense Coordinator for Drug Enforcement
Policy and Support Comments. The Acting Deputy Assistant Secretary of
Defense (Drug Enforcement Policy and Support) concurred with the
recommendation and will coordinate with the Under Secretary of Defense
(Comptroller) to incorporate into the DD 1415-3, “Reprogramming Action –
Internal,” by reference, the data sheet attachment prepared by DEP&S showing
the funding authorization by individual project code. This will occur when
funds are reprogrammed from the DoD Central Transfer Account to the Defense
Components.




                                  6
Appendix A. Audit Process

Scope and Methodology
    The audit performed on the DoD FY 1999 counterdrug budget did not identify
    any significant problems; therefore, the scope of this review of the DoD
    FY 2000 counterdrug budget was more limited. In addition to reviewing
    reprogramming of funds from the DoD Central Transfer Account and controls
    over obligations, we reviewed unliquidated obligations to determine if the
    validation review was being accomplished as required by the DoD Financial
    Management Regulation. The regulation requires unliquidated obligations that
    exceed a certain dollar threshold, depending on appropriation type, to be
    validated three times a year. We used the FY 2000 Financial Obligation Status
    Reports and funding documents to review the management controls over the
    DoD counterdrug projects managed by the Air Combat Command (ACC), the
    Fleet Surveillance Support Command (FSSC), the Joint Interagency Task Force
    West (JIATF-W), and the Naval Special Warfare Command (NSWC). We
    reviewed procedures for approving, recording, and reporting FY 2000
    obligations of the DoD counterdrug funds at each organization responsible for
    budget execution that we visited. We reviewed contract modifications, financial
    obligation status reports, funding documents, laws, Military Interdepartmental
    Purchase Requests, purchase orders, travel authorizations, and other data
    necessary to achieve the audit objectives. We also interviewed personnel
    responsible for budget execution at each of the sites we visited.

    DoD-Wide Corporate-Level Coverage. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate-level goals, subordinate performance goals, and
    performance measures. This report pertains to the achievement of the following
    corporate-level goal and subordinate performance goal:

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploring the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)
           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following Financial Management
    Functional Area objective and goal:

           Objective: Eliminate problem disbursements. Goal: Improve
           timeliness and accuracy of obligations. (FM-3.3)




                                       7
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the accounting systems at each Defense Component visited to determine
    the amount of funding received and obligations recorded. Although we did not
    perform a formal reliability assessment of the computer-processed data, we
    determined that the funding received by the Defense Components and
    obligations reported agreed with the information in the computer-processed data.
    We did not find any errors that would preclude use of the computer-processed
    data to meet the audit objectives or that would change the conclusions in this
    report.
    Audit Type, Dates, and Standards. We performed this financial-related audit
    from September 2000 through March 2001 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We examined
    management controls over the obligation and financial reporting of National
    Drug Control Program funds at selected organizations that actually executed
    portions of the FY 2000 counterdrug budget. We also reviewed overall DoD
    management controls over the distribution of National Drug Control Program
    Funds. We limited our review of the management control program at Major
    Command recipients of drug control funds who only had management oversight
    of the funds, but delegated the budget execution to subordinate organizations.

    Adequacy of Management Controls. Management controls over distribution
    of National Drug Control Program Funds managed through the DoD Central
    Transfer Account were initially reasonable, but DEP&S changed procedures
    during the year and stopped reprogramming the funds from the DoD Central
    Transfer Account to Defense Components by project code. The change
    eliminated a well-documented audit trail.

    Management controls over obligation of and financial reporting that relates to
    National Drug Control Funds managed through the DoD Central Transfer


                                        8
     Account were adequate to prevent misuse of the funds at the organizations that
     we visited that executed the DoD counterdrug budget. For the results of our
     review of the Management Control Program at the budget execution sites we
     visited, see Appendix D.

Prior Coverage
     During the last 5 years, the Inspector General, DoD, issued one report covering
     National Drug Control Program funds managed through the DoD Central
     Transfer Account. Unrestricted Inspector General, DoD, reports can be
     accessed through the Internet at http://www.dodig.osd.mil/audit/reports.


Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-145, “Management Controls Over
     National Drug Control Program Funds Managed Through the DoD Central
     Transfer Account,” June 9, 2000




                                        9
Appendix B. Attestation Memorandum for
            DoD Coordinator for Drug
            Enforcement Policy and Support




                    10
11
Appendix C. Compliance Status of Accounting
            Systems
           The table below identifies the accounting systems that DEP&S identified in the
           DoD annual report to ONDCP as being used by the Army, Navy, and Air
           Force. Although referenced below, we separately identified the accounting
           system used by the National Guard Bureau. The table also shows the DFAS
           estimate to make the system compliant with Federal and DoD requirements, or
           for legacy systems, the estimated date the replacement system will be
           operational.

                                   Compliance of Accounting Systems

                   System                Acronym       User        Compliancy         Date
           Standard Finance System       STANFINS      Army        Legacy          September 20051
           Standard Accounting and       STARS         Navy        Noncompliant    September 2002
            Reporting System
           General Accounting and        GAFS          Air Force   Noncompliant    September 2004
            Finance System
           State Accounting and Budget   SABERS        Guard       Noncompliant    October 2004
            Expenditure Reservation
            System1




1
    The Defense Financial Management Improvement Plan shows STANFINS to be consolidated into the
    Defense Joint Accounting System by September 2005.



                                                  12
Appendix D. Organizations Visited
    As a result of the work we previously performed under audit Project
    No. D1999LH-0043 (Inspector General, DoD, Report No. D-2000-145), for
    this audit we limited the number of sites we visited and reduced the scope of
    work performed at those sites. This appendix discusses our review of
    management controls over obligation and financial reporting related to National
    Drug Control Program funds.

Air Combat Command
    The ACC, located at Langley Air Force Base, Virginia, receives funding for
    seven counterdrug project codes. The ACC is an Air Force Major Command
    and does not directly execute the counterdrug budget, but does have oversight
    responsibility. The actual budget execution of the seven projects was performed
    by ACC subordinate organizations.

    Counterdrug Funding. The ACC receives funding for counterdrug projects
    from DEP&S through the Office of the Assistant Secretary of the Air Force
    (Financial Management and Comptroller). The ACC distributes the funding to
    subordinate organizations responsible for budget execution. Table D-1 shows
    the amount of counterdrug O&M funding that ACC reported and obligated by
    project code.
                      Table D-1. Reported FY 2000 ACC Counterdrug
                                 O&M Funding and Obligation Status
                                             (in millions)

       Project Code        Project Description            Received   Obligated

          4110         Tethered Aerostat Radar              $29.0*     $34.4*
          4207         Caribbean Basin Radar                 12.9       12.9
          4418         Air Support – SOUTHCOM                 4.6        4.6
          4419         Ground Mobile Radar                    9.5        9.5
          4431         AWACS Counterdrug Support              3.7        3.7
          8451         Demand Reduction                       1.0        1.0
          9500         Forward Operating Locations           18.1       18.3*

            Total                                           $78.8      $84.4

       SOUTHCOM U.S. Southern Command
       AWACS    Airborne Warning and Control Systems

       *includes some noncounterdrug funds (see explanation below)

    Obligations. We judgmentally selected and reviewed $30.3 million in
    obligations for project codes 4110, 4418, and 4419, or about 75 percent of the
    $40.4 million ($26.3 million + $4.6 million + $9.5 million) in counterdrug


                                            13
FY 2000 O&M funds obligated for those projects. We did not review obligation
of counterdrug procurement funds at ACC or any O&M funds of the other ACC
counterdrug projects. Although ACC reported receiving $29 million FY 2000
O&M counterdrug funds for project 4110, the ACC explained in a footnote that
the $29 million received included $2.7 million in noncounterdrug O&M funds.
The Tethered Aerostat Radar System includes 11 radar sites, 8 of which support
counterdrug missions. The tethered aerostat radar program is funded by both
counterdrug and noncounterdrug funds. The Air Force sent $2.7 million in
noncounterdrug funds to the ACC for the three radar sites that did not support
counterdrug missions, but mistakenly placed a counterdrug restriction on the
funds. That mistake caused ACC to believe it had received more O&M
counterdrug funds for project 4110 from the DoD Central Transfer Account
than actually received. Therefore, the $29 million ACC reported as FY 2000
counterdrug O&M funds received for project 4110 was overstated by including
at least $2.7 million in noncounterdrug funds. The correct figure for FY 2000
counterdrug O&M funds for project 4110 was, at most, $26.3 million.

ACC also supplemented its counterdrug funds for project 4110 with $5.4 million
in noncounterdrug funds (also explained in a footnote) and reported $8.1 million
too much ($2.7 million + $5.4 million) in O&M counterdrug obligations for the
project. The $5.4 million was also intended for the three noncounterdrug
tethered aerostat radar sites, although the Air Force had not placed a
counterdrug restriction on these funds. Therefore, ACC did not report the funds
as counterdrug funds received, but included them in obligations because they
supported the radar program. The $34.4 million FY 2000 O&M counterdrug
obligations for project 4110 reported by ACC was overstated by the amount of
noncounterdrug funds. The correct figure was instead, at most, $26.3 million.
The Air Force counterdrug coordinator corrected these amounts when
forwarding Air Force totals to DEP&S to ensure consistent and appropriate
reporting of figures to be included in the DoD data sent to the ONDCP.

The counterdrug funds distributed represent a “floor” funding amount, which
must be spent as directed, although agencies have authority to supplement
counterdrug projects with noncounterdrug funds if necessary to fund their
operations. For counterdrug project 9500, ACC reported that it obligated about
$200,000 more than received in FY 2000 O&M counterdrug funding. The extra
amount was funded with noncounterdrug funds, and the Air Force counterdrug
coordinator reported the ACC actual obligation figure for this project to DEP&S
instead of backing out the noncounterdrug funds that ACC included, as it had
done for project 4110. We did not interpret these reporting differences to
indicate a material control weakness. Because the reported figures for project
4110 were corrected before becoming part of the DoD report and footnoted to
ensure that they were interpreted properly by Air Force management, the
figures that ACC reported to the Air Force merely represented additional
information to the Air Force Counterdrug Coordinator.

The obligations for project 4110 consisted of contract expenses for O&M of the
Tethered Aerostat Radar System. The obligations for projects 4418 and 4419
that we reviewed were also appropriate.



                                   14
    Unliquidated Obligation Review. At ACC, a tri-annual review of unliquidated
    obligations (ULO) was performed as required and outlined in the DoD Financial
    Management Regulation. The tri-annual reviews cover the periods of October
    through January, February through May, and June through September of each
    fiscal year. DFAS assisted ACC in the tri-annual review efforts. On scheduled
    release dates, DFAS prepares and sends ACC three files to perform the ULO
    validation review. The fund holders review and update the files. At a specified
    suspense date, the files are returned to DFAS for processing. Management
    reports on the ULO review are generated by DFAS for analysis by the fund
    holders at ACC. Our examination of the status of the drug programs at ACC
    shows that the fund administrators are proactive in managing their counterdrug
    programs.

    Management Control Program. We examined the FY 2000 Annual Statement
    of Assurance prepared by ACC and several internal management control
    reviews, which reported no material deficiencies in internal management
    controls that would affect our audit results. The only deficiency reported by
    ACC was unrelated to controls over obligation of counterdrug funds. In
    addition, the Air Force established specific accounting codes for use in FY 2000
    and later to accumulate costs for counterdrug projects, enhancing their visibility
    of the counterdrug funding execution. Finally, ACC had numerous external
    reviews conducted on its internal controls throughout the year, which reported
    nothing that would adversely affect our results.

    Conclusion. Internal controls over obligation of counterdrug funds at ACC
    appeared adequate. During our limited review at ACC, nothing came to our
    attention to indicate that counterdrug funds were used for anything other than
    the purposes intended by Congress.

Fleet Surveillance Support Command
    The FSSC, located in Chesapeake, Virginia, is responsible for execution of the
    O&M budget of the Relocatable Over-The-Horizon Radar (ROTHR) program.
    The ROTHR program provides tactically significant, wide area surveillance
    information to support the detection and monitoring mission of the Joint
    Interagency Task Force East, located in Florida.

    Counterdrug Funding. FSSC receives ROTHR counterdrug funding from
    DEP&S through the Office of the Chief of Naval Operations and the
    Commander, Naval Space Command. The ROTHR project code is 3217;
    however, the funding is distributed and accounted for by the amounts provided
    to each radar site. For FY 2000, the Virginia and Texas sites received
    $33 million and the Puerto Rico site received $12 million for a total of
    $45 million in O&M funding. Of the $45 million, the FSSC received a total of
    $44.8 million, with the remainder being executed by the ROTHR program
    office, which is located at the Naval Space Command in Dalhgren, Virginia.

    Obligations. The majority of the ROTHR program obligations was related to
    contract expenses involving the O&M and/or upgrade of the three radar sites.


                                        15
The FSSC reported obligating all of the $44.8 million in FY 2000 counterdrug
funding that it received. That total agreed with the amounts recorded in the
Standard Accounting and Reporting System-Field Level (STARS-FL) database
as of September 30, 2000. The STARS-FL is an official Navy accounting
system. FSSC personnel developed a system of local records to track budget
execution because STARS-FL cannot produce reports in the format needed to
brief senior management on the status of the program. The locally developed
management reports track funding and obligations, and summarizes the data by
radar site and expense category. The reports also enabled management to
identify the expenses as either direct mission support or base operations. The
locally developed management reports were reconciled monthly with reports
from the STARS-FL. We tested the local records to validate their reliability and
completeness and found no substantive errors with the FSSC records or reports.

We judgmentally selected and reviewed 38 documents valued at about
$32.3 million, or 72 percent of the $44.8 million received in O&M counterdrug
funding. The O&M contract to maintain and operate the three radar sites
accounted for about $22.4 million. Another $7.6 million was for support from
the Space and Naval Warfare Systems Command. The remainder of the
obligation documents reviewed included expenses such as installation and use of
communications lines, land lease expenses for a transmitter site, purchase and
installation of network equipment for the radar sites, radar equipment upgrades,
and telephone and janitorial services.

Unliquidated Obligation Review. FSSC performed quarterly reviews of its
unliquidated obligations in accordance with Navy guidance. The Navy
requirement was more stringent than the requirement in the DoD Financial
Management Regulation because the Navy requires a quarterly review of all
unliquidated obligations rather than a review of unliquidated obligations that
exceed a specified dollar threshold three times a year. The STARS-FL produces
an Active Document List, which identifies open obligations. For each quarter,
every unliquidated obligation for FY 1995 through FY 2000 was reviewed. If
the obligation was no longer valid, it was deobligated. FSSC prepared a written
report of review results each quarter. For each fiscal year, the report showed
the number of documents reviewed, the amount of obligations reviewed, and
any amounts that were obligated or deobligated as a result of the review. The
report was sent to the Assistant Secretary of the Navy (Financial Management
and Comptroller).

Management Control Program. We reviewed the adequacy of the FSSC
Management Control Program. Specifically, we reviewed controls over budget
obligations, travel claims, and unmatched disbursements. A management
control review had been conducted in each of these areas and no weaknesses
were identified. FSSC management controls were adequate. We identified no
material management control weaknesses.




                                   16
    Conclusion. The controls over the ROTHR counterdrug funds at the FSSC
    appeared reasonable. During our limited review, we found no material
    problems that would lead us to believe that the counterdrug funds were being
    obligated for purposes other than intended, or that the dollar amounts reported
    by FSSC as being obligated were materially misstated.

Joint Interagency Task Force West
    The JIATF-W, located in Alameda, California, is responsible for conducting
    detection and monitoring operations and for providing support to law
    enforcement agencies and U.S. country teams with the mission to disrupt drug
    trafficking throughout the U.S. Pacific Command area of responsibility. The
    primary mission of JIATF-W is to provide intelligence support and information
    on heroin, cocaine, and other illegal drugs that originate from or transit through
    Southeast Asia, Southwest Asia, or the Eastern Pacific Ocean.

    Counterdrug Funding. The JIATF-W counterdrug budget is distributed from
    DEP&S through the Assistant Secretary of the Navy (Financial Management and
    Comptroller) to the U.S. Pacific Command. The U.S. Pacific Command issues
    a Resource Authorization document, which provides JIATF-W with counterdrug
    funding, identified by project code. During FY 2000, JIATF-W was
    responsible for three counterdrug project codes. The funding and reported
    obligations by project code are shown in Table D-2.
                    Table D-2. Reported FY 2000 JIATF-W Counterdrug
                            O&M Funding and Obligation Status
                                      (in millions)

         Project Code         Project Description           Received   Obligated

             3204       Other Pacific Counterdrug Support     $ 0.6     $ 0.6
             3309       Intelligence Support                    9.2       9.2
             9202       Heroin Counterdrug Operations           0.4       0.4

              Total                                          $10.2      $10.2

    Obligations. JIATF-W reported counterdrug obligations of $10.2 million,
    which agreed with the amounts recorded in the STARS-FL. Of the
    $10.2 million, more than $7.3 million was for purchases of goods and services
    or travel expenses. The remainder of the funds was primarily for civilian pay.
    We focused our review on the $7.3 million and sampled $3.7 million of the
    supporting documentation. The documentation we reviewed included contracts,
    Military Interdepartmental Purchase Requests, purchase orders, and travel
    orders. The majority of the travel orders that we sampled were to support either
    counterdrug operations or training, and the majority of the purchases were for
    equipment, ground support, and other support services required to accomplish
    the JIATF-W counterdrug mission. The remainder of the transactions was for
    administrative and base support expenses.



                                           17
    Unliquidated Obligation Review. JIATF-W performs a quarterly review of its
    unliquidated obligations in accordance with Navy guidance and sends the reports
    to the U.S. Pacific Fleet. During FY 2000, the review included unliquidated
    obligations for FY 1995 through FY 2000. However, because of limited
    comptroller staff at JIATF-W, each fiscal year is not reviewed every quarter.
    We noted that the JIATF-W report indicated the number of documents that were
    reviewed, the amount reviewed, and the amount that was deobligated as a result
    of the review. We told JIATF-W comptroller personnel that we did not feel this
    was adequate documentation, and suggested that at a minimum, the specific
    documents that were reviewed should be identified. The JIATF-W Comptroller
    agreed and stated that beginning with the next review they would keep a listing
    of the documents reviewed.

    Management Control Program. We reviewed the adequacy of the
    Management Control Program at JIATF-W. The Annual Statement of
    Assurance prepared by JIATF-W reported that internal controls were effective
    and provided reasonable assurance that assets were protected from fraud, waste,
    and abuse. The Annual Statement of Assurance reported no material
    weaknesses. The management controls at JIATF-W were adequate in that we
    identified no material control weaknesses.

    Conclusion. The controls over JIATF-W counterdrug funds appeared
    reasonable. During our limited review, we found no material problems that
    would lead us to believe that the counterdrug funds were being obligated for
    purposes other than intended, or that the dollar amounts reported by JIATF-W
    as being obligated were materially misstated.

Naval Special Warfare Command
    The NSWC, located in San Diego, California, is responsible for three project
    codes—project 6404 (Riverine Support), project 6410 (Patrol Coastal), and
    project 6415 (Special Operations Forces Counterdrug Support). The NSWC
    receives its counterdrug funding from DEP&S through the Special Operations
    Command. The two primary projects are Riverine Support and Patrol Coastal.
    Under the Riverine Support project, the Navy conducts training to enhance the
    skills of host-nation forces in counterdrug operations. The Patrol Coastal
    project funds the operation and deployment of naval vessels in coordination with
    law enforcement agencies for counterdrug detection and monitoring operations
    in international waters. In addition, the Patrol Coastal project also provides
    counterdrug training to enhance the skills of host-nation forces in counterdrug
    operations. The Navy Special Forces units that receive and execute counterdrug
    funds are the Naval Special Warfare Groups One and Two, and Special Boat
    Squadrons One and Two. Those units are based in Little Creek, Virginia, and
    at the Naval Amphibious Base, San Diego, California.

    Counterdrug Funding. The NSWC received and reported as obligated about
    $6 million in FY 2000 counterdrug O&M funding. The funding and reported
    obligations by project code are shown in Table D-3.



                                       18
               Table D-3. Reported FY 2000 NSWC Counterdrug
                          O&M Funding and Obligation Status
                                       (in millions)

     Project Code     Project Description        Received       Obligated

        6404        Riverine Support              $4.30           $4.22
        6410        Patrol Coastal                 1.72            1.80
        6415        Special Operations Forces
                     Counterdrug Support            .02             .02

          Total                                   $6.04           $6.04

Obligations. The supporting documentation for the obligation amounts was
located at the operational component level. Because of the time constraints of
the audit, the relative small magnitude of the program, and because we found
nothing that indicated a problem with budget obligations, we did not visit the
individual units.

Unliquidated Obligation Review. The NSWC performs a quarterly review of
unliquidated obligations in accordance with Navy guidance. We did not review
the supporting documentation for the unliquidated obligation review report at
NSWC because it only contained obligations data for the portion of the NSWC
budget that was executed at the headquarters level. The NSWC counterdrug
budget was executed mostly by subordinate organizations, and data about these
transactions were maintained at the organization level.

Management Control Program. NSWC implemented internal controls and
performed reviews to evaluate them. We examined the FY 1999 and FY 2000
Annual Statements of Assurance and four reviews of management internal
controls for assessable units relevant to our audit. No significant or material
weaknesses were reported in any of the management control reviews or in the
Annual Statements of Assurance prepared by NSWC. Additionally, we obtained
a copy of an inspection checklist that NSWC used to evaluate the internal
controls of subordinate organizations during command inspections and noted
that the checklist included procedures for review of counterdrug program
functions. We concluded that internal controls over obligation of funds at the
command were adequate to prevent misuse of counterdrug funds. We did not
review the management control program of subordinate organizations of NSWC
that actually executed the counterdrug budget.

Conclusion. The controls over the counterdrug funds managed by NSWC
appeared reasonable. During our limited review, we found no material
problems that would lead us to believe that the counterdrug funds were being
obligated for purposes other than intended, or that the dollar amounts reported
by NSWC as obligated were materially misstated.




                                     19
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Affairs)
  Deputy Assistant Secretary of Defense (Drug Enforcement Policy and Support)
     Coordinator for Drug Enforcement Policy and Support
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Chief, National Guard Bureau
Inspector General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
  Special Assistant for Counterdrug Matters
Commander, Fleet Surveillance Support Command
Commander, Naval Space Command
Inspector General, Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Combat Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
  Acting Chief of Air Force Counterdrug Budget
Inspector General, Department of the Air Force
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Pacific Command
 Commander, Joint Interagency Task Force West
Commander in Chief, U.S. Special Operations Command
 Commander, Naval Special Warfare Command




                                         20
Non-Defense Federal Organizations
Office of Management and Budget
Director, Office of National Drug Control Policy

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         21
DoD Coordinator for Drug Enforcement
Policy and Support Comments




                  22
Audit Team Members
The Readiness and Logistic Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Robert M. Murrell
Albert L. Putnam
Bernard M. Baranosky
Gregory S. Fulford
Steven G. Schaefer
